                              /




                                                     NA TIONAL SCIENCE FOUNDATION
                                                      OFFICE OF INSPECTOR GENERAL
                                                        OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM

  Case Number: 1-10050020                                                                       Page 1 of 1



          This investigation was opened to review awards 1 made to a company2 whose employees have
          received NSF awards through their positions at separate institutions 3 . A review of the proposals
                 •                                          4                                  .
          submItted to NSF and another federal agency found that the PIon the other federal agency's
          award to the company was paid as a contractor on NSF's award to the company and employed
          full-time at a separate institution, potentially iri violation of the rules of the Small Business
          Technology Transfer (STTR) program.

          Our investigation revealed that the other federal agency's STTR rules did not require PIs to be
          primarily employed at the awardee company. Therefore, no eligibility issues exist arid the PIon
          the other federal agency's award would have no problem being paid as a contractor off of the
          NSF award to the company.

          In light of the above, no further investigative effort is necessary in this matter.

          Accordingly, this case is closed..




NSF OIG Fonn 2 (11102)
